No. _________
IN THE SUPREME COURT OF THE UNITED STATES

MIGUEL ANGEL BAEZ-CASTILLO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

PETITION FOR A WRIT OF CERTIORARI
APPENDIX

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas

APPENDIX A

Case: 19-10958

Document: 00515425049

Page: 1

Date Filed: 05/21/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 19-10958
Summary Calendar

FILED
May 21, 2020
Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
MIGUEL ANGEL BAEZ-CASTILLO,
Defendant-Appellant
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:19-CR-58-1
Before HIGGINBOTHAM, HO, and ENGELHARDT, Circuit Judges.
PER CURIAM: *
Miguel Angel Baez-Castillo appeals his conviction and 60-month
sentence for illegal presence in the United States under 8 U.S.C. § 1326(b)(1).
He asserts that the fact of a prior felony conviction was an element of the
offense that was not alleged in the indictment or admitted by him as required
by the Sixth Amendment and historical common-law practices. He concedes
that the issue is foreclosed by Almendarez-Torres v. United States, 523 U.S.

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
CIR. R. 47.5.4.
*

Case: 19-10958

Document: 00515425049

Page: 2

Date Filed: 05/21/2020

No. 19-10958
224 (1998). Baez-Castillo contends, however, that the Supreme Court has not
considered the historical common law approach to pleading prior convictions
since Almendarez-Torres, although its Sixth Amendment jurisprudence
subsequently evolved to apply the common law practice of defining elements
in Apprendi v. New Jersey, 530 U.S. 466, 477-83 (2000). He seeks to preserve
for further review this historical challenge to treating prior convictions as
sentencing factors rather than elements of the offense.
The Government has moved for summary affirmance or, alternatively,
an extension of time to file a brief.

Because Baez-Castillo’s argument is

foreclosed, summary affirmance is appropriate. See Groendyke Transp., Inc. v.
Davis, 406 F.2d 1158, 1162 (5th Cir. 1969). The Government’s motion for
summary affirmance is GRANTED, and the judgment is AFFIRMED. The
Government’s alternative motion for an extension of time to file a brief is
DENIED.

2

APPENDIX B

Case 4:19-cr-00058-A Document 33 Filed 08/24/19

Page 1 of 5 PageID 78

19-10958.43

Case 4:19-cr-00058-A Document 33 Filed 08/24/19

Page 2 of 5 PageID 79

19-10958.44

Case 4:19-cr-00058-A Document 33 Filed 08/24/19

Page 3 of 5 PageID 80

19-10958.45

Case 4:19-cr-00058-A Document 33 Filed 08/24/19

Page 4 of 5 PageID 81

19-10958.46

Case 4:19-cr-00058-A Document 33 Filed 08/24/19

Page 5 of 5 PageID 82

19-10958.47

